                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I08050039
                                         P                                    11          Page 1 of 1



         This case was opened pursuant to a proactive investigative review of awards for which no final
         project reports had been submitted and for which funds had been drawn down after the expiration
         date. A review of IVSF databases revealed that an institution1 had 17 awards for which no final
         reports had been submitted and for which $179,4 11 had been drawn down after the respective
         expiration dates.

         We requested general ledgers for each of the 17 awards and identified $79,443 of expenses
         incurred after the respective expiration dates. From our review of the source documents and
         explanations provided by the institution, we determined the expenses were appropriate.
         Accordingly, this case is closed.




VSF OIG Form 2 (1 1/02)
